No. 20-1009
IN THE

Supreme Court of the United States
DAVID SHINN, et al.,
Petitioners,
v.
DAVID MARTINEZ RAMIREZ AND BARRY LEE JONES,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
BRIEF OF AMICI CURIAE HABEAS
SCHOLARS IN SUPPORT OF RESPONDENTS
Boris Bershteyn
Counsel of Record
Mollie Kornreich
Thania Charmani
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
One Manhattan West
New York, NY 10001
(212) 735-3000
boris.bershteyn@skadden.com

i
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE .............................. 1
SUMMARY OF THE ARGUMENT .......................... 4
ARGUMENT .............................................................. 6
I.

FEDERAL COURTS HAVE APPLIED
MARTINEZ NARROWLY .............................. 6

II.

THE RARE APPLICATION OF MARTINEZ
IS NECESSARY TO SAFEGUARD THE
CONSTITUTIONAL RIGHT TO COUNSEL 9
A.

Joe Mitchell ........................................ 10

B.

Lawrence Gaines ................................ 12

CONCLUSION ........................................................ 14
APPENDIX ............................................................. 1A

ii
TABLE OF AUTHORITIES
CASES
Batson v. Kentucky,
476 U.S. 79 (1986) ............................................. 9
Coleman v. Thompson,
501 U.S. 722 (1991) ........................................... 6
Gaines v. Marsh,
No. 20-361, 2021 WL 1141965 (E.D.
Pa. Mar. 24, 2021), appeal docketed,
No. 21-1978 (3d Cir. May 27, 2021) ... 11, 12, 13
Gray v. Gilmore,
No. 3:14-CV-1595, 2016 WL 3254862
(M.D. Pa. June 14, 2016) .................................. 6
Griffin v. Crews,
No. 08-cv-22817-KMM, 2014 WL
11380944 (S.D. Fla. June 19, 2014) ................. 6
Hodges v. Colson,
727 F.3d 517 (6th Cir. 2013) ............................. 6
Isbell v. Nagle,
No. 2:94-cv-2448-CLS-TMP, 2016
WL 7320914 (N.D. Ala. Apr. 4, 2016),
report and recommendation adopted,
2016 WL 7242178 (N.D. Ala. Dec. 15,
2016) .................................................................. 6
Martinez v. Ryan,
566 U.S. 1 (2012) ..................................... passim

iii
Milam v. Director, TDCJ-CID,
No. 4:13-CV-545, 2017 WL 3537272
(E.D. Tex. Aug. 16, 2017) .................................. 5
Mitchell v. Genovese,
974 F.3d 638 (6th Cir. 2020) .......................... 9, 10, 11

INTEREST OF AMICI CURIAE1
Amici Curiae are scholars at universities
across the United States with expertise in the law of
habeas corpus. Amici have collectively spent decades
researching, studying, and writing about the writ of
habeas corpus and have a professional interest in ensuring that this Court is accurately informed
regarding the implementation of Martinez v. Ryan,
566 U.S. 1 (2012), by the federal courts. The Amici
believe that Martinez is a vital mechanism for criminal defendants to have a meaningful opportunity for
review of ineffective assistance of trial counsel claims
that were never adequately presented in state habeas
proceedings because of ineffective assistance of state
post-conviction relief counsel.
The group of habeas scholars consists of:
John H. Blume, the Samuel F. Leibowitz Professor of Trial Techniques and Director of the Cornell
Death Penalty Project at Cornell Law School. He
teaches Criminal Procedure, Evidence, and Federal
Appellate Practice, and supervises the Capital Punishment and Juvenile Justice Clinics. In addition to
being the author of several books and numerous law
review articles, Professor Blume has argued eight
cases in the Supreme Court of the United States and
has been co-counsel or amicus curiae counsel in numerous other Supreme Court cases.
The parties have filed blanket consents to the filing of all
amicus briefs at the merits stage. No counsel for a party authored this brief in whole or in part, and no person other than
the amici and their counsel has made any monetary contribution to the preparation or submission of this brief.
1

2
Erwin Chemerinsky, the Dean and Jesse H.
Choper Distinguished Professor of Law at Berkeley
Law at the University of California. He is the author
of a leading treatise on federal courts and of casebooks on constitutional law and criminal procedure.
In 2017, National Jurist magazine again named
Dean Chemerinsky the most influential person in legal education in the United States.
Michael C. Dorf, the Robert S. Stevens Professor of Law at Cornell Law School. He is the author,
co-author, or editor of six books and over one hundred scholarly articles and essays for law reviews,
and peer-reviewed science and social science journals
on various topics including the death penalty and
habeas corpus.
Eric M. Freedman, the Siggi B. Wilzig Distinguished Professor of Constitutional Law at Hofstra
University School of Law. He is the author of numerous articles regarding habeas corpus, defense
representation in death penalty cases and related
matters. He is also the author of the scholarly monographs Habeas Corpus: Rethinking the Great Writ of
Liberty (NYU Press 2003) and Making Habeas Work:
A Legal History (NYU Press 2018). Professor Freedman serves as the Reporter to the ABA’s Guidelines
for the Appointment and Performance of Defense
Counsel in Capital Cases, and on the steering committee of the ABA’s Death Penalty Representation
Project. He regularly provides legislative testimony
and expert testimony on matters relating to habeas
corpus and the performance of counsel in capital cases.

3
Brandon Garrett, the L. Neil Williams, Jr. Professor of Law at Duke Law School and director of the
law school’s Wilson Center for Science and Justice.
In addition to numerous articles published in leading
law reviews and scientific journals, Professor Garrett’s work has been widely cited by courts, including
this Court, lower federal courts, state supreme courts,
and international courts.
Randy Hertz, the Vice Dean of N.Y.U. School
of Law and director of the law school’s clinical program.2 Before joining the N.Y.U. faculty, Professor
Hertz worked at the Public Defender Service for the
District of Columbia in the juvenile, criminal, appellate and special litigation divisions. He is the coauthor of a two-volume treatise titled Federal Habeas
Corpus Law and Practice.
James Liebman, the Simon H. Rifkind Professor of Law at Columbia Law School. Professor
Liebman has argued five capital and habeas corpus
appeals in front of the U.S. Supreme Court. He has
also testified before the Senate Judiciary Committee
and the House Judiciary Subcommittee on Courts,
Intellectual Property, and the Administration of Justice about the need for improved legal representation
in state capital trials and revisions to federal habeas
corpus law, respectively. He is the co-author of a
two-volume treatise titled Federal Habeas Corpus
Law and Practice.
Mr. Hertz’s title and institutional affiliation are being provided for identification purposes only, and the views expressed
in the brief should not be regarded as the position of N.Y.U.
School of Law.
2

4
Justin Marceau, a Professor at the University
of Denver’s Sturm College of Law. He specializes in
Constitutional Law, Criminal Law and Procedure,
and in particular, habeas corpus. He is a member of
the American Law Institute, and the recipient of the
Colorado Gideon award. He has published a textbook
and numerous academic articles on issues involving
habeas corpus. His articles have been cited frequently, including by this Court and other state and
federal courts.
Keir M. Weyble, Clinical Professor of Law at
Cornell Law School. He teaches Evidence, Trial Advocacy, Post-Conviction Remedies and Capital
Punishment Law, and co-teaches the Capital Punishment and Juvenile Justice Clinics. He has been
co-counsel or amicus curiae counsel in nine capital or
habeas corpus cases decided by the Supreme Court of
the United States. He has also written, lectured, and
consulted extensively on habeas corpus law and practice for more than twenty-five years.
SUMMARY OF THE ARGUMENT
In asking this Court to erode its decision in
Martinez v. Ryan, 566 U.S. 1 (2012), the State of Arizona paints a dismal picture of that decision’s
practical consequences—a picture that turns out to
bear little relationship to the reality of habeas corpus
litigation. According to Arizona, Martinez “would inevitably swell beyond its bounds and envelop the
interests in finality, comity, and federalism AEDPA
was intended to protect,” vindicating the concern of
the dissenting Justices in Martinez that the majority
is granting criminal defendants a “‘free pass to feder-

5
al habeas’” relief. (Pet. Br. 28 (quoting Martinez, 566
U.S. at 28 (Scalia, J., dissenting)). In fact, a decade
of post-Martinez practice repudiates these dire predictions and confirms that federal courts have
granted habeas relief predicated on Martinez exceedingly rarely.
To help illustrate this, Amici present an analysis of federal court decisions addressing Martinez
related claims in the three jurisdictions that have the
highest number of those decisions. This analysis,
summarized in the Appendix, confirms that—far
from granting a “free pass”—federal courts have applied Martinez narrowly and only in extraordinary
circumstances.
Although federal courts in these jurisdictions
have addressed habeas petitions asserting that petitioner’s procedural default should be excused under
Martinez in 1,200 cases, they have granted relief in
only 38 of these cases, and a hearing relating to the
prisoner’s Martinez related claim in only 19. These
results confirm that federal courts grant relief on the
basis of Martinez only in extraordinary cases, where
it is essential to safeguard criminal defendants’
“right to the effective assistance of counsel at trial,”
which serves as “a bedrock principle in our justice
system.” Martinez, 566 U.S. at 12. A spotlight on
two illustrative cases confirms that, as in the cases
before the Court, federal courts have granted relief
only under unusual circumstances as contemplated
in Martinez.

6
ARGUMENT
I.

FEDERAL COURTS HAVE APPLIED
MARTINEZ NARROWLY

Federal courts are precluded from considering
the merits of most habeas petitions for procedural
reasons, and evidence presented here by Amici confirms that this remains true following this Court’s
decision in Martinez. As before, the “role of federal
courts in reviewing habeas corpus petitions by prisoners in State custody is exceedingly narrow.”
Milam v. Dir., TDCJ-CID, No. 4:13-CV-545, 2017 WL
3537272, at *6 (E.D. Tex. Aug. 16, 2017).
Federal courts have followed this Court’s guidance
in
Martinez—including
in
permitting
evidentiary development—without opening the proverbial litigation floodgates. On the contrary, federal
courts recognize “that the equitable rule announced
in Martinez is exceedingly narrow,” applying only to
failure to raise ineffective assistance of counsel
claims in initial-review collateral proceedings. Isbell
v. Nagle, No. 2:94-cv-2448-CLS-TMP, 2016 WL
7320914, at *2 (N.D. Ala. Apr. 4, 2016), report and
recommendation adopted, 2016 WL 7242178 (N.D.
Ala. Dec. 15, 2016); see also Griffin v. Crews, No. 08cv-22817-KMM, 2014 WL 11380944, at *2 (S.D. Fla.
June 19, 2014) (“Martinez has a very specific and
very narrow holding with a limited application.”); id.
at *3 (“The limitations of the holding in Martinez are
clear.”); Hodges v. Colson, 727 F.3d 517, 531 (6th Cir.
2013) (“The Court in Martinez purported to craft a
narrow exception to Coleman. We will assume that
the Supreme Court meant exactly what it wrote:

7
“‘Coleman held that an attorney’s negligence in a
postconviction proceeding does not establish cause,
and this remains true except as to initial-review collateral proceedings for claims of ineffective assistance
of counsel at trial.’” (quoting Martinez, 566 U.S. at
15)).
Federal courts have also consistently rejected
attempts to broaden the reach of Martinez and offer
relief outside the four corners of its holding. See, e.g.,
Isbell, 2016 WL 7320914, at *2 (declining to extend
Martinez where petitioner proceeded pro se because
the rule does not apply to “appeals from initialreview collateral proceedings” (quoting Martinez, 566
U.S. at 16)); Gray v. Gilmore, No. 3:14-CV-1595, 2016
WL 3254862, at *7 (M.D. Pa. June 14, 2016) (declining to extend Martinez to ineffective assistance of
post-conviction counsel claims outside of claims of ineffective assistance of trial counsel).
Litigation outcomes match these careful pronouncements by federal courts. Amici present an
analysis of all cases that seek to apply the Court’s
holding in Martinez in the three jurisdictions (spanning three different circuits) with the greatest
number of federal court opinions that do so: Pennsylvania, Florida, and South Carolina. 3 This review
Amici selected these three states because they present the
greatest number of federal court opinions that cite or discuss
the Court’s holding in Martinez. Federal District Court opinions in those three states that cite Martinez and related
appellate decisions, a total of 2,294 cases, have been considered.
Amici now present data solely from cases where the court held
that Martinez could arguably apply to petitioner’s claims and
undertook the relevant analysis, a total of 1,200 cases.
3

8
confirms that habeas relief remains the rare exception.
Collectively, the federal courts in these states
have addressed a Martinez related claim in 1,200
cases between March 27, 2012 and August 20, 2021,
but have granted habeas relief in only 38 of those.
Only three of the 38 were capital cases. See Appendix.
Further, these courts granted Martinez
evidentiary hearings even less frequently—out of the
1,200 cases—only 19 petitioners received an evidentiary hearing. See id.
As this Court accurately predicted in Martinez,
its holding does not “put a significant strain on state
resources,” because “[w]hen faced with the question
whether there is cause for an apparent default, a
State may answer that the ineffective assistance of
trial counsel claim is insubstantial, i.e., it does not
have any merit or that it is wholly without factual
support, or that the attorney in the initial-review collateral proceeding
did not perform
below
constitutional standards.” Martinez, 566 U.S. at 1516. Indeed, out of the 1,200 cases discussing a Martinez related claim, in 1,037 cases (86%), the court
held that Martinez could not provide an avenue for
relief because it held that the prisoner’s claim of ineffective assistance of trial counsel was not
“substantial” or did not have “some merit.” See Appendix.
In total, Martinez has provided an avenue for
relief in less than four percent of the cases that invoked it before the federal courts of these three states.
See id. In the nine years since Martinez was decided,

9
federal courts have demonstrated that they are more
than capable of safeguarding the principles of comity,
finality and federalism while preserving the important function of Martinez’s narrow exception.
II.

THE RARE APPLICATION OF
MARTINEZ IS NECESSARY TO
SAFEGUARD THE CONSTITUTIONAL
RIGHT TO COUNSEL

Although Martinez has not made relief broadly
available, it succeeded in permitting federal courts to
review newly developed evidence in the narrow context where both trial counsel and post-conviction
counsel are ineffective. This narrow opportunity for
meaningful habeas relief remains critical for the reason this Court identified in Martinez: “A prisoner’s
inability to present a claim of trial error is of particular concern when the claim is one of ineffective
assistance of counsel.” Martinez, 566 U.S. at 12.
Without the procedural avenue afforded by Martinez,
including the ability to present newly developed evidence on federal habeas review, defendants may be
denied any effective review of the sufficiency of trial
counsel—no matter how poor the representation.
The cases currently before this Court are illustrative,
as are two recent federal court decisions discussed
below that granted habeas relief. Each involves
acute deficiencies in trial counsel’s representation
that would have evaded scrutiny without the narrow
Martinez gateway to federal habeas review.

10
A.

Joe Mitchell

The case of Joe Clark Mitchell provides one
example of how ineffective assistance of counsel
might evade review if a federal court is precluded
from considering new evidence on a habeas petition.
In 1986, Mitchell, a Black man, was sentenced to life
in prison plus thirteen years after an all-white jury
convicted him of raping two white women in Tennessee. Mitchell v. Genovese, 974 F.3d 638, 640 (6th Cir.
2020). The prosecution’s case against Mitchell consisted of wholly circumstantial evidence; they had
neither a confession nor eyewitness identification. Id.
at 641. During voir dire, Mitchell’s attorney failed to
object when the prosecution struck a prospective
Black juror on the basis of her race, despite the Supreme Court’s recent decision in Batson v. Kentucky,
476 U.S. 79 (1986), months prior. Mitchell, 974 F.3d
at 640-41. Mitchell’s post-conviction counsel failed to
argue that this failure rendered trial counsel ineffective. Id at 640-41. It was not until the postconviction hearing that Mitchell’s post-conviction
counsel orally moved to add a Batson claim. Mitchell,
974 F.3d at 641. Even then, post-conviction counsel
“failed to show how many peremptory strikes were
used, who they were used against, or whether black
prospective jurors remained in the venire.” Id. The
state post-conviction court denied relief, without ruling on the Batson claim. Id.
The district court reviewing Mitchell’s federal
habeas petition heard newly presented evidence, including testimony by the prosecutor himself,
persuading the court that the only Black juror was
stricken from the venire in violation of Batson.

11
Mitchell, 974 F.3d at 641, 650-51. Despite the fact
that the district court heard the evidence of this Batson violation in 1994—the only court to do so—and
granted Mitchell relief on three separate occasions,
the Sixth Circuit overturned that relief all three
times because it “repeatedly viewed post-conviction
counsel’s failure to bring an [ineffective assistance of
counsel]-Batson claim . . . to constitute a procedural
default.” Id. at 641-42, 647, 651. It was only in 2020
that the Sixth Circuit, relying on Martinez, held that
Mitchell was entitled to “a new trial[,] free of unconstitutional race discrimination.” Id. at 651. In 2020,
the Sixth Circuit concluded that “it [wa]s time—past
time—that [it] rectif[ied] the ‘judicial travesty’ that is
Mitchell’s sentence.” Id. (citation omitted). The
court explained: “Striking black prospective jurors on
the basis of race “‘poisons public confidence” in the
judicial process,’ because it suggests the justice system is complicit in racial discrimination. Denial of
the opportunity to seek relief in such situations undermines respect for the courts and the rule of law.”
Id. at 652 (citations omitted). Martinez “remove[d]
[the] barrier” for the relief Mitchell was due 25 years
earlier. Id.
Mitchell’s case well illustrates how federal
courts target “the danger Martinez sought to address—that the provision of two consecutive
constitutionally ineffective lawyers would trap habeas petitions in a procedural double-bind through
which they would be consigned to prison without a
court ever hearing the merits of their constitutional
claim.” Mitchell, 974 F.3d at 652.

12
B.

Lawrence Gaines

The Eastern District of Pennsylvania’s decision addressing Lawrence Gaines’s habeas petition
likewise illustrates the federal courts’ well-tailored
application of Martinez. Gaines v. Marsh, No. 20-361,
2021 WL 1141965 (E.D. Pa. Mar. 24, 2021). Gaines,
acting as “muscle” outside of a drug house, scuffled
with a prospective drug purchaser who “later surprised Mr. Gaines by hitting him in the back with a
house rail after Mr. Gaines turned away.” Id. at *1.
Gaines reacted by stabbing the prospective purchaser,
who later succumbed to his injuries. Id. Gaines and
his trial counsel chose to rely on a self-defense argument “after the evidence confirmed the potential
drug purchaser hit Mr. Gaines with a house rail after
Mr. Gaines turned away thinking the scuffle ended”
and “[a]n eyewitness described the scuffle and Mr.
Gaines’s response to being hit with a house rail.” Id.
at *37.
Gaines’s trial counsel suggested that he may
not want to testify in his defense. Id. The trial judge
twice agreed to instruct the jury it could draw “no
adverse inference” from Gaines’s decision to not testify if requested. Id. The “no adverse inference”
instruction ensures that jurors do not equate defendants’ refusal to testify with guilt—a concern
especially relevant here in light of Gaines’s selfdefense theory. Id. at *20-21.
Before the charging conference, trial counsel
twice informed the judge he would seek a “no adverse
inference” instruction, and the trial court indicated it
would give the instruction. Id. at *8. But ultimately

13
counsel “did not ask for the instruction at the charging conference or after the instructions to the jury
when afforded at least three opportunities to do so,”
id. at *17, to purportedly “avoid drawing attention to
the issue which presumably could only aid Mr.
Gaines.” Id. at *37. Trial counsel made this decision
without consulting with Gaines. Id. The jury never
received the instruction. Id. The court charged the
jury on first and third-degree murder and voluntary
and involuntary manslaughter because it “found sufficient evidence to allow the jury to choose a lesser
included homicide offense which also involved the
possibility of a significantly reduced sentence.” Id. at
*9. The jury convicted Gaines of first-degree murder
and Gaines was sentenced to life without possibility
of parole. Id.
The error was compounded when Gaines’s
post-conviction counsel “failed to notice the omission
of the ‘no adverse inference’ instruction from the trial
transcripts.” Id. at *17. The district court found that
“[i]t [was] objectively unreasonable to omit from the
PCRA petition [trial counsel’s] failure regarding the
instruction.” Id. The court held that post-conviction
counsel “had no strategic reason for failing to raise
the ‘no adverse inference’ instruction issue . . . .” Id.
“[H]e simply did not notice the issue,” even though
“[a] reading of the trial transcripts” clearly showed
that the instruction had been contemplated but never
given to the jury. Id.
It was only through a Martinez hearing that
testimony from both sets of counsel revealed the lack
of strategy and reasoning that went into their failure
to address the lack of a “no adverse inference” in-

14
struction. The district court concluded: “After evaluating the credibility of testimony from trial and postconviction counsel, we must find Mr. Gaines has been
deprived of constitutionally effective assistance of
counsel from the trial and direct appeal counsel as
well as the post-conviction counsel.” Id. at *38. Absent Martinez, Gaines’s meritorious claim would not
have been heard by any court because post-conviction
counsel “simply did not notice the issue.” Id. at *1718.
***
The successful habeas petitions of Mr. Mitchell
and Mr. Gaines, as well as the cases now before the
Court, illustrate that, while Martinez rarely results
in habeas relief, it is necessary to ensure that an individual accused of a criminal offense that involves
the potential loss of physical liberty—or, as in the
cases before the Court, life—has a meaningful Sixth
Amendment right to effective assistance of counsel at
trial. In the decade since Martinez, federal courts
have diligently endeavored to provide meaningful relief in such cases without offering the “free pass” to
habeas relief that Arizona invokes before the Court.
CONCLUSION
For the foregoing reasons, the Court should affirm the decisions below.

15
Respectfully submitted,

Boris Bershteyn
Counsel of Record
Mollie Kornreich
Thania Charmani
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
One Manhattan West
New York, NY 10001
(212) 735-3000
boris.bershteyn@skadden.com

September 20, 2021

